Roderick and Solange MacArthur Justice Center
375 East Chicago Avenue
Chicago, IL 60611
macarthurjusticecenter.org

David M. Shapiro
Director, Supreme Court & Appellate Program
david.shapiro@macarthurjustice.org
O 312 503 0711
F 312 503 1272

April 23, 2021
VIA U.S. MAIL
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Kong v. City of Burnsville, et al., Case No. 20-875
Dear Mr. Harris,
Respondents filed their brief in opposition to certiorari in the above-captioned
case on April 16, 2021. The first distribution date for paid petitions following the 14day grace-period is May 4, 2021.
Pursuant to the Court’s March 19, 2020 order, Petitioner respectfully requests
that the Court delay distribution of this petition by 28 days, until the Court’s June 1,
2021 distribution date. Petitioner requests this additional time to file a certiorari
reply based on substantial disturbances caused by the COVID-19 outbreak. This
request will cause the case to be rescheduled from the May 20, 2021 conference to the
June 17, 2021 conference.
Respondents do not oppose this request.
Very truly yours,

David M. Shapiro
Counsel for Petitioner
cc: Joseph E. Flynn, Counsel for Respondents

